No. 19-1039
In the

Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC
PETITIONER,
V.

STATE OF NEW JERSEY, ET AL.
RESPONDENTS,
On Petition For Writ Of Certiorari
To The Third Circuit Court Of Appeals
BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that this Brief
In Opposition contains 8,737 words, excluding the parts of the document
that are exempted by supreme Court 33.1(d).
I declare under penalty of perjury that the forgoing is true and
correct.

Date: June 2, 2020
JEREMY M. FEIGENBAUM
Counsel of Record

